ft

'

No.

IN THE
SUPREME COURT OF THE UNITED STATES

ferret o<Sanchez, Jr i — PETITIONER
(Your Name)
VS.

■THE PEOPLE

— RESPONDENT(S)

PROOF OF SERVICE

i

fcrnaodio

Jc-

do swear or declare that on this date,
i i -q
20^0, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
. an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

M o \q\—>6 r

-vA^eoe, serwcdL

■

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

W-R

, 20^

IWd
NOV 1 8 2020

